APPENDIX A
974 F.3d 281
United States Court of Appeals, Third Circuit.
UNITED STATES of America
v.
Mohammed JABATEH
a/k/a Jungle Jabbah
Mohammed Jabateh, Appellant
No. 18-1981
Argued January 21, 2020
(Filed: September 8, 2020)
Before: AMBRO, MATEY, FUENTES, Circuit Judges.
OPINION
MATEY, Circuit Judge.
Mohammed Jabateh served as a rebel commander
during the Liberian civil war. When his faction lost
power, he fled to the United States seeking asylum
and permanent residency. His conduct in Liberia,
characterized by brazen violence and wanton
atrocities, made an honest immigration application
impossible. So he repeatedly lied to United States
immigration officials, concealing his crimes and
portraying himself as a persecuted victim. Jabateh’s
ruse succeeded for almost twenty years until a jury
convicted him of immigration fraud and perjury. Now,
Jabateh challenges his conviction and his sentence.
His arguments about the quantity and quality of
evidence presented at trial are wrong, with plentiful
facts supporting the jury’s findings. And his claims of
sentencing error ignore the *287 careful and detailed
reasoning of the District Court.
1a

Jabateh also argues, for the first time, that the
Government improperly charged him with making
false oral statements during an interview with an
immigration officer in violation of 18 U.S.C. § 1621
and 18 U.S.C. § 1546(a). While we find no error in
Jabateh’s convictions for perjury under § 1621, his
convictions under § 1546(a) are a different matter. In
every case, of course, “[t]he Constitution gives a
criminal defendant the right to have a jury determine,
beyond a reasonable doubt, his guilt of every element
of the crime with which he is charged.” United States
v. Gaudin, 515 U.S. 506, 522–23, 115 S.Ct. 2310, 132
L.Ed.2d 444 (1995). The statutory text alone defines
those elements. Here, the text of § 1546(a)
criminalizes fraud in immigration documents. By
contrast, the Government did not charge Jabateh
with fraud in his immigration documents, only with
orally lying about those documents. That is a
distinction unsupported by the ordinary and best
reading of § 1546(a), and we agree with Jabateh that
the Government’s interpretation is incorrect.
But while Jabateh is right, his failure to raise this
argument at trial significantly alters the scope of our
review. Given the novelty of the interpretative
question, and the lack of persuasive, let alone
authoritative, guidance, we cannot conclude that our
reading of § 1546(a) meets the stringent standards for
reversal for “plain error” the Federal Rules of
Criminal Procedure require. For that reason, we will
affirm his conviction in full.
I. Background
We recount only the relevant history, reviewing the
2a

record evidence in the light most favorable to the
prosecution, as we must in an appeal challenging the
sufficiency of the evidence. United States v.
Caraballo–Rodriguez, 726 F.3d 418, 430 (3d Cir.
2013) (en banc).
A. Jabateh and the Liberian Civil War
Civil war brought brutal violence to Liberia. In 1989,
Charles Taylor’s rebel group, the National Patriotic
Front of Liberia (NPFL), invaded Liberia to overthrow
Liberia’s president, Samuel Doe. The violence
fractured not only Liberia but the rebels themselves.
NPFL soon split into two factions: the NPFL led by
Taylor, and the Independent National Patriotic Front
of Liberia (INPFL) led by Prince Johnson.1 In 1990,
Johnson captured and executed President Doe,
triggering even more violence.2 New rebel factions
entered the fray to oppose the NPFL, including the
United Liberation Movement of Liberia (ULIMO),
founded by ethnic Mandingos and Krahns, groups
targeted by the NPFL.3 Tensions within ULIMO
eventually swelled, causing a split along ethnoreligious lines into new warring factions. Islamic
Mandingo fighters followed Alhaji Kromah, a member
of former President Doe’s cabinet, to form ULIMO-K
(for Kromah), while Christian Krahn fighters joined
Roosevelt Johnson to form ULIMO-J (for Johnson).4
____________________
Luca Renda, Ending Civil Wars: The Case of Liberia, 23-Fall
Fletcher F. World Aff. 59, 61 (1999).
1

2

Id.

3

Id. at 62 & n.11.

4

Id.

3a

One of Kromah’s ULIMO commanders was
Mohammed Jabateh, who fought under the nom de
guerre “General Jungle Jabbah” or “Jungle Jabbah.”5
During the *288 height of the civil war, from 1992
through 1995, Jabateh led ULIMO’s Zebra Battalion
at the frontlines of the conflict in Western Liberia.
Under Jabateh’s command, fighters brutalized
prisoners of war and civilians alike. Their crimes were
breathtaking in their scope and cruelty, including
murder, rape, torture, ritual cannibalism, and human
enslavement. We recount only some of the atrocities
told at trial to the extent relevant to the issues raised
on appeal.
1. Torture
Jabateh and fighters acting under his direction
routinely tortured and murdered their adversaries,
real or assumed. Operating from a territory dubbed
“Zero Guard Post,”6 Jabateh’s militia arrested and
then executed anyone suspected of “reconnaissance.”
(App. at 677.) Their bodies were then simply
“throw[n] ... into the river.” (App. at 678.) Others were
less fortunate, suffering torture before death. A
____________________
Three witnesses at trial identified Jabateh in the courtroom
as the ULIMO Commander known as Jungle Jabbah.

5

A less than subtle reference, as “[z]ero means [‘]to get rid of
you[’] in the Liberian language.” (App. at 675.)

6

4a

favorite practice of Jabateh’s troops involved “tabay,”
binding a prisoner’s arms behind the back tight
enough to constrict breathing. In one instance,
Jabateh ordered a child soldier to place tires around
two prisoners’ necks, douse the tires in gasoline, and
set them on fire. As the prisoners screamed in agony,
Jabateh’s fighters shot them, then left their bodies to
burn to ashes.
In another instance, Janghai Barclay testified that
she fled her home to escape fighting between ULIMO
and NPFL, only to endure capture by Jabateh’s men.
When Jabateh arrived to inspect the prisoners, Ms.
Barclay watched Jabateh declare a captured young
man a spy and order him executed. Jabateh’s soldiers
tied the man to a tree and slit his throat. Jabateh
then told his soldiers that they could “take” the
women for themselves and “[w]hen they refuse you
can kill them.” (App. at 1040.) The soldiers then raped
Ms. Barclay, who was eight months pregnant, causing
her to suffer a miscarriage.
Or take Hawa Gonoie. She recounted that she was
just thirteen when Jabateh and his fighters came to
her village. After Jabateh’s forces captured her
family, she witnessed Jabateh give the order to kill a
suspected spy, remove his heart, and feed the organ to
Jabateh and his fighters. Conscription into ULIMO-K
awaited the men, while Jabateh ordered his soldiers
to “have” the women. (App. at 408.) Jabateh
“assigned” Ms. Gonoie to an adult soldier who raped
her for the next month and a half. (App. at 412.)
2. Persecution
The violence rolled on. After ULIMO split along tribal
lines, Jabateh and his ULIMO-K fighters targeted,
5a

tortured, and killed members of the Krahn tribe.
Around this time, ULIMO-K troops attacked a village
where Martha Togba lived with her sister Tina.
During the attack, troops targeted Tina because she
was the girlfriend of a ULIMO-J commander. Jabateh
dragged a pregnant Tina from her home by her hair,
bleeding from a gunshot wound and half naked, into
the street. Jabateh beat and stabbed Tina while he
interrogated her about her boyfriend’s location. When
Tina insisted that she did not know, Jabateh inserted
his gun into Tina’s vagina and fired, killing her.
Jabateh then ordered a child soldier to guard Tina’s
body as it lay in the street to ensure that no one
moved her until her body rotted.
3. Retribution
Jabateh quelled opposition with bone-chilling cruelty.
When residents of one *289 town complained to the
Economic Community of West African States
Monitoring Group (“ECOMOG”) after ULIMO-K
killed and beat several villagers and looted their
homes, Jabateh and his troops returned to mete out
punishment. Soldiers gathered the townspeople and
pressed them into slavery. For little more than sport,
Jabateh ordered several villagers, including the
village chief, executed, and their hearts cut out. Grim
acts of cannibalism followed.
The record goes on and on, but we will not. It is
enough to say without exaggeration that the atrocities
documented at trial, and found by a jury, paint a
portrait of a madman.
B. Jabateh Seeks Asylum
But though mad, Jabateh was no fool. So when the
6a

civil war ended with Taylor and the NPFL victorious,
and a possible reckoning for his crimes loomed,
Jabateh left Liberia and applied for asylum in the
United States. As part of the application, Jabateh
filed Form I-589 (“Asylum Application”) with the
United States Immigration and Naturalization
Service. One question on the Asylum Application
asked:
Have you or any member of your family ever
belonged to or been associated with any organizations or groups in your home country, such as, but
not limited to, a political party, student group, labor
union, religious organization, military or paramilitary group, civil patrol, guerrilla organization,
ethnic group, human rights group, or the press or
media?
If yes, provide a detailed explanation of your or your
relatives’ involvement with each group and include
the name of each organization or group; the dates of
membership or affiliation; the purpose of the
organization; your duties or your relatives’ duties or
responsibilities in the group or organization; and
whether you or your relatives are still active in the
group(s).
(App. at 93.) Jabateh responded “Yes” and referred to
the attached personal statement. (App. at 93.) In
addition, the Asylum Application asked:
Have you, your spouse, or child(ren) ever caused
harm or suffering to any person because of his or
her race, religion, nationality, membership in a
particular social group or belief in a particular
political opinion, or ever ordered, assisted, or
otherwise participated in such acts?
7a

(App. at 95.) In response to this question, Jabateh
marked “No” on the form. (App. at 93.)
In the personal statement accompanying his asylum
application, Jabateh spun a tale that reimagined his
role during the war and diffidently cast himself as an
innocent victim of ethnic persecution. He claimed he
worked as an intelligence officer for ULIMO’s
predecessor, and was merely transferred into the
successor organization. Jabateh painted ULIMO’s
cause as noble, hoping to “protect Mandingo and
Krahn people from being murdered and massacred by
NPFL forces and to bring democracy to Liberia[.]”
(App. at 99.) But Jabateh never mentioned military
combat. Instead, he explained his work as largely
clerical and administrative, first inside the executive
headquarters and later as part of the security detail
for ULIMO’s leader. Then, he explained, when
ULIMO’s opponents took office, Jabateh and his
fellow Mandingo colleagues were dismissed. And
fearing persecution, he fled to the United States. In
short, fabrications and falsehoods filled his written
statements.
In 1999, Jabateh met with Nancy Vanlue, a U.S.
Citizenship and Immigration Services (“USCIS”)
asylum officer, for an interview about his application
(“1999 Interview”). At the meeting, Vanlue reviewed
*290 Jabateh’s written responses in his Asylum
Application, and his accompanying personal
statement. During the interview, Vanlue asked
Jabateh to confirm his answers, including whether he
had “ever committed a crime” or “harmed anyone
else.” (App. at 166, 570–71.) Jabateh was firm,
responding “no.” Accepting his sworn answers, Vanlue
8a

recommended Jabateh be granted asylum. Based on
his application responses and Vanlue’s recommendation, Jabateh was granted asylum.
C. Jabateh Seeks Permanent Residency
In 2001, Jabateh applied for permanent residency in
the United States. As before, he filed a written
application, this time using Form I-485. And once
again, his answers ignored the truth. Among other
questions, Form I-485 asked “[h]ave you ever engaged
in genocide, or otherwise ordered, incited, assisted or
otherwise participated in the killing of any person
because of race, religion, nationality, ethnic origin or
political opinion?” and “have you, by fraud or willful
misrepresentation of a material fact, ever sought to
procure, or procured, a visa, other documentation,
entry into the U.S. or any immigration benefit?” (App.
at 84.) Jabateh’s answer to both: no.
Many years later, in 2011,7 USCIS officer Norman De
Moose interviewed Jabateh under oath about his
application
for
permanent
residency
(“2011
Interview”). De Moose reviewed and confirmed
Jabateh’s responses in his Form I-485, but tailored
the interview to focus on the questions “actually
applicable” to Jabateh. (App. at 603, 628.) De Moose
knew the Liberian civil war involved “a great number
____________________
Although Jabateh applied for permanent residency in 2001,
his initial interview occurred in 2007, and another four years
passed before his follow-up interview in 2011. The
Government explains this delay as “just a lag in the
immigration system.” (Oral Arg. Tr. at 50–51.) The accuracy
of that charitable characterization is beyond the scope of this
appeal.

7

9a

of atrocities” with “no clean hands on either side.”
(App. at 619.) So while Jabateh was still under oath,
De Moose asked certain questions from Form I-485
verbatim. When he came to question 8 on Form I-485,
De Moose asked Jabateh: “Have you ever engaged in
genocide, or otherwise ordered, incited, assisted or
otherwise participated in the killing of any person
because of race, religion, nationality, ethnic origin or
political opinion?” (App. at 84, 635.) Jabateh
responded “no.” (App. at 635.) De Moose also asked
question 10 verbatim, asking “have you, by fraud or
willful misrepresentation of a material fact, ever
sought to procure, or procured, a visa, other
documentation, entry into the U.S. or any
immigration benefit?” (App. at 84, 637.) Jabateh
again answered “no.” (App. at 637.) These false
answers were critical because, as De Moose explained,
“somebody who takes up arms and engages in certain
wartime acts would be inadmissible to the United
States.” (App. at 627.)
D. Jabateh Is Indicted for Fraud
Although the wheels of justice sometimes turn slowly,
they do not turn without purpose. And so, nearly two
decades after his arrival, a grand jury indicted
Jabateh for the fraud in his immigration documents
in violation of 18 U.S.C. § 1546(a) (Counts One and
Two) and perjury in violation of 18 U.S.C. § 1621
(Counts Three and Four).8 But the long delay came
____________________
The Government explained that Jabateh was not indicted
until 2016 because “[t]he information that proved the
misconduct here did not come to the Government’s attention
until well after the 2011” Interview. (Oral Arg. Tr. at 50.)

8

10a

with a cost: all four counts related to Jabateh’s *291
oral statements during the 2011 Interview. Recall
that Jabateh filed his Form I-485 application for
permanent residency in 2001, so the statute of
limitations for any misconduct related to that filing
had long passed by the time of Jabateh’s indictment
in 2016. See 18 U.S.C. § 3282 (five-year statute of
limitations); 18 U.S.C. § 3291 (ten-year statute of
limitations for certain immigration offenses). That left
the Government with only Jabateh’s oral responses in
the 2011 Interview affirming his answer of “no” to the
questions
related
to
genocide
and
prior
misrepresentations
during
his
immigration
applications.
E. Jabateh’s Conviction
For those who suffered under Jabateh’s command, the
two-week jury trial provided a vivid public rebuke
from seventeen Liberian eyewitnesses whose
“demeanor and bearing ... underscored the almost
inconceivable horrors and indignities they had
endured.” (App. at 14.) The District Court observed
that “[i]t is difficult to convey the force of the
prosecution’s trial evidence” (App. at 14), which
established that Jabateh was a rebel commander
during the Liberian civil war known as “Jungle
Jabbah.” And that evidence also demonstrated that,
as a rebel commander, Jabateh personally committed
or ordered his troops to commit murder, enslavement,
rape, and torture “because of race, religion,
nationality, ethnic origin or political opinion.” (PSR ¶
7.) Following deliberations, the jury convicted Jabateh
on all four counts. The District Court later imposed a
sentence of 360 months’ imprisonment, the maximum
permitted, along with three years’ supervised release,
11a

and a special assessment of $400.9 Jabateh timely
appealed. The District Court had subject matter
jurisdiction under 18 U.S.C. § 3231, and we have
jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. §
3742(a).
II. Analysis
The horrors recounted at trial, retold only in part
here, are indescribably tragic. Our role on appeal,
however, is to review whether the prosecution carried
its burden to prove beyond a reasonable doubt each
element of the crimes charged. That the Government
did on Counts Three and Four, establishing all the
elements needed for the jury’s finding of perjury
under 18 U.S.C. § 1621. And while the text of 18
U.S.C. § 1546(a) cannot be read to reach the conduct
charged by the Government in Counts One and Two,
that error is not plain. Finally, there are no
sufficiency or sentencing errors that warrant reversal.
So we will affirm.
A. 18 U.S.C. § 1546(a) Does Not Encompass Oral
Statements
We begin with the charges in Counts One and Two
alleging that during the 2011 Interview, and while
under oath, Jabateh orally reaffirmed false answers
on his permanent resident application.10 Both counts
____________________
The District Court separately issued a detailed memorandum outlining its reasoning for the sentence imposed.

9

To repeat, that Jabateh had never “engaged in genocide,
otherwise ordered, incited, assisted or otherwise participated
in the killing of any person because of race, religion,
nationality, ethnic origin or political opinion” (Count One),
and that he had never procured an immigration benefit by
10

12a

alleged that these false, oral statements violated 18
U.S.C. § 1546(a) which prohibits a particular kind of
conduct where a person:
knowingly makes under oath, or as permitted under
penalty of perjury under section 1746 of title 28,
United States Code, knowingly subscribes as true,
any false statement with respect to a material *292
fact in any application, affidavit, or other document
required by the immigration laws or regulations
prescribed thereunder, or knowingly presents any
such application, affidavit, or other document which
contains any such false statement or which fails to
contain any reasonable basis in law or fact. ...
The Government and Jabateh agree on this much: all
that is at issue is whether § 1546(a) is best read to
reach Jabateh’s oral statements during the 2011
Interview. Deciding that question turns not on
Jabateh’s butchery and debasement of innocents
illustrated to, and found by, a jury of his peers.
Rather, no matter how troubling the facts, perhaps,
especially when so, “our job is to interpret the words
consistent with their ‘ordinary meaning ... at the time
Congress enacted the statute.’ ” Wis. Cent. Ltd. v.
United States, ––– U.S. ––––, 138 S. Ct. 2067, 2070,
201 L.Ed.2d 490 (2018) (alteration in original)
(quoting Perrin v. United States, 444 U.S. 37, 42, 100
S.Ct. 311, 62 L.Ed.2d 199 (1979)); see also New Prime,
Inc. v. Oliveira, ––– U.S. ––––, 139 S. Ct. 532, 539,
202 L.Ed.2d 536 (2019). “After all, only the words on
the page constitute the law adopted by Congress and
approved by the President. If judges could add to,
_______________(cont'd)
fraud or willful misrepresentation of a material fact (Count
Two). (App. at 75–76.)

13a

remodel, update, or detract from old statutory terms
inspired only by extratextual sources and our own
imaginations, we would risk amending statutes
outside the legislative process[.]” Bostock v. Clayton
Cnty., ––– U.S. ––––, 140 S. Ct. 1731, 1738, –––
L.Ed.2d –––– (2020). Such a result would, of course,
“deny the people the right to continue relying on the
original meaning of the law they have counted on to
settle their rights and obligations.” Id. And “the
people” protected by our system of laws include both
the innocent and the guilty. So to interpret the
meaning of § 1546(a) in its current form, we begin
with the text as originally enacted and then consider
the import of amendments to that text over time.11
1. The Immigration Act of 1924
The law codified as § 1546(a) was first enacted as part
of the Immigration Act of 1924 (“1924 Act”).
Immigration Act of 1924, Pub. L. No. 68-139, 43 Stat.
153. The relevant provision fell within the section
entitled “Offenses in connection with documents” and
originally stated: “Whoever knowingly makes under
____________________
Prior decisions interpreting § 1546(a) provide little help.
While we considered the meaning of § 1546(a) in United
States v. Ashurov, our review was limited to the presentment
clause. 726 F.3d 395 (3d Cir. 2013). The Ninth Circuit’s
decision in United States v. Chu addressed what constitutes
an “oath” in the context of § 1546(a), but it did not address
whether § 1546(a) extends to oral statements. 5 F.3d 1244
(9th Cir. 1993). The First Circuit construed § 1546(a) to apply
only where “the statement was made in an application
required by the United States immigration laws and
regulations.” United States v. Boskic, 545 F.3d 69, 85 (1st Cir.
2008). But it did not explain its conclusion that § 1546(a)
applied to statements in the required immigration document,
but not statements about those documents.
11

14a

oath any false statement in any application, affidavit,
or other document required by the immigration laws
or regulations prescribed thereunder, shall, upon
conviction thereof, be fined ... or imprisoned ..., or
both.” 1924 Act § 22(c). Our focus is on the term
“application,” and how that word, as used by
Congress, is best construed.
Start with ordinary usage. As commonly understood
during that time, “application” meant making a
request. See Application, Black’s Law Dictionary 78
(2d ed. 1910) (“A putting to, placing before, preferring
a request or petition to or before a person. The act of
making a request for something.”); H.W. Fowler &
F.G. Fowler, The *293 Concise Oxford Dictionary of
Current English 39 (7th ed. 1919) (defining
“application” as the “making of a request”); Noah
Webster, An American Dictionary of the English
Language 45 (New York, White & Sheffield 1841)
(defining “application” as “[t]he act of making request,
or soliciting”). While “application” standing alone, in
1924 as now, could refer to an oral request,
“[w]idening our view to take in” the entire statutory
context shows that Congress meant a written
submission. Henson v. Santander Consumer USA Inc.,
––– U.S. ––––, 137 S. Ct. 1718, 1722, 198 L.Ed.2d 177
(2017).
First, the 1924 Act places “application” in a threeitem series: “application, affidavit, or other
document.” 1924 Act § 22(c). Congress’s use of the
phrase “or other document” then modifies both
“application” and “affidavit” to make them similar in
scope, as “[w]ords in a list are generally known by the
company they keep.” Logan v. United States, 552 U.S.
15a

23, 31, 128 S.Ct. 475, 169 L.Ed.2d 432 (2007). As
limited, “application” thus refers to a request
submitted in the form of a document. Beecham v.
United States, 511 U.S. 368, 371, 114 S.Ct. 1669, 128
L.Ed.2d 383 (1994) (“That several items in a list share
an attribute counsels in favor of interpreting the
other items as possessing that attribute as well.”). So
while “application” might have a “much more
expansive sense, that isn’t how the term was
ordinarily used at the time.” Wis. Cent., 138 S. Ct. at
2072 (emphasis omitted).12
Second, the section heading of the 1924 Act adds
clarity, because while “heading[s] cannot substitute
for the operative text of the statute[,]” they are surely
____________________
Cases from the period construing “application” in other
contexts apply the same meaning. See, e.g., N. Assurance Co.
of London v. Grand View Bldg. Ass’n, 183 U.S. 308, 359, 22
S.Ct. 133, 46 L.Ed. 213 (1902) (“[H]ere the right is asserted to
prove, not only that the assured did not make the statements
contained in his answers, but that he never read the
application[.]”) (quoting N.Y. Life Ins. Co. v. Fletcher, 117 U.S.
519, 529, 6 S.Ct. 837, 29 L.Ed. 934 (1886)); United States v.
Poinier, 140 U.S. 160, 162, 11 S.Ct. 752, 35 L.Ed. 395 (1891)
(“It would seem from this [context] that the ‘applications’
were presumed to be in writing[.]”); Rushing v. Manhattan
Life Ins. Co. of N.Y., 224 F. 74, 75 (8th Cir. 1915) (referring to
an application for a life insurance policy as a “written
application”); U.S. Fid. & Guar. Co. v. Egg Shippers’
Strawboard & Filler Co., 148 F. 353, 357 (8th Cir. 1906) (“It
is altogether clear that the written statement which the
defendant failed to attach to or indorse on the bond is an
application or representation within the meaning of the Iowa
statute.”); Carrollton Furniture Mfg. Co. v. Am. Credit
Indemn. Co. of N.Y., 124 F. 25, 30 (2d Cir. 1903) (“In this case
... there was an untrue statement in the application signed by
the insured[.]”).
12

16a

“tools available for the resolution of doubt about the
meaning of a statute.” Fla. Dep’t of Revenue v.
Piccadilly Cafeterias, Inc., 554 U.S. 33, 47, 128 S.Ct.
2326, 171 L.Ed.2d 203 (2008) (internal quotation
marks and citation omitted). Congress opted to place
the prohibition on “any false statement in any
application” inside a section titled “Offenses in
Connection with Documents,” strong evidence that
“application” referred to a written request or
submission. See 1924 Act § 22.
Next, we “extend[ ] our gaze from the narrow
statutory provision at issue to take in the larger
statutory landscape[.]” Henson, 137 S. Ct. at 1722.
Preceding sections of a statute “are integral parts of a
whole” and “define the field in which Congress was
legislating[.]” New Prime, 139 S. Ct. at 538. Helpfully,
Congress’s reference to an “application” in Section
22(c) was not its only use of that term in the 1924 Act.
Take Section 7(a), requiring that “[e]very immigrant
applying for an immigration visa shall make
application therefor in duplicate in such form *294 as
shall be by regulations prescribed.” 1924 Act § 7(a).
None would read a directive to submit duplicate
applications to mean anything besides written forms.
Or consider Section 7(f), explaining that “[e]ach copy
of the application shall be signed by the immigrant in
the presence of the consular officer and verified by the
oath of the immigrant administered by the consular
officer.” 1924 Act § 7(f). And, by cross-reference,
including a false statement in a document required
under Section 7(f) subjected an affiant to prosecution
under Section 22(c).13 So we follow the “natural
____________________
Recall that Section 22(c), later codified as 18 U.S.C. §
1546(a), provided “[w]hoever knowingly makes under oath
13

17a

presumption that identical words used in different
parts of the same act are intended to have the same
meaning.” Atl. Cleaners & Dyers, Inc. v. United
States, 286 U.S. 427, 433, 52 S.Ct. 607, 76 L.Ed. 1204
(1932). That means Congress used the term
“application” consistently to mean a written
instrument throughout the 1924 Act.
Finally, “contemporaneous usages, customs, and
practices” during the era “shed light on the meaning
of the language in question at the time of enactment.”
McGirt v. Oklahoma, ––– U.S. ––––, 140 S. Ct. 2452,
2468, ––– L.Ed.2d –––– (2020); see also Oliver
Wendell Holmes, The Theory of Legal Interpretation,
12 Harv. L. Rev. 417, 417–18 (1899) (describing
interpretation as asking “what those words would
mean in the mouth of a normal speaker of English,
using them in the circumstances in which they were
used,” and noting that “it is to the end of answering
this last question that we let in evidence as to what
the circumstances were”). Under the 1924 Act,
immigrants seeking entry into the United States first
obtained a visa by applying to an American consulate
abroad. 1924 Act §§ 2, 7; see generally Abram Orlow,
Manual on the Immigration Laws of the United
States 44–45 (B’nai B’rith, 2d ed. 1948) (describing
the documentation required to prepare visa petitions).
“The formal application [was] filled out only when the
[individual] present[ed] himself with his documents
and evidence.” Sidney Kansas, U.S. Immigration
Exclusion and Deportation and Citizenship of the
_______________(cont'd)
any false statement in any application, affidavit, or other
document required by the immigration laws or regulations
prescribed thereunder, shall, upon conviction thereof, be fined
... or imprisoned ..., or both.” 1924 Act § 22(c).

18a

United States of America 21 (2d ed. 1940). Then,
“[e]ach copy of the application” was “signed by the
immigrant in the presence of the consular officer and
verified by the oath of the immigrant administered by
the consular officer.” 1924 Act § 7(f). And a fee
covered “the furnishing and verification of each
application, which ... include[d] the furnishing and
verification of the duplicate.” Id. § 7(h). Throughout,
the focus of the visa process was the information in
the application, supported by accompanying
documentation. That ended with a “preexamination ...
conducted in the first instance by an immigrant
inspector” who “shall prepare in duplicate Form I-448,
‘Manifest Data,’ which together with the application
for preexamination, medical certificate, documents
required in § 142.9, and other pertinent documents
presented, shall constitute the record in the case.” 8
C.F.R. § 142.11 (1941). And it was a false statement
within that “application, affidavit, or other [required]
document” that could trigger criminal penalty. See,
e.g., United States ex rel. Fink v. Reimer, 16 F. Supp.
487 (S.D.N.Y. 1936), aff’d, 96 F.2d 217 (2d Cir. 1938)
(Hand, J.) (obtaining a visa as a result of a false
statement that misrepresented the applicant’s
identity violated Section 22(c)); see also Kansas,
supra, at 65 (describing Section 22 as addressing
“forged, false, or altered documents”).
*295 Taken together, the best reading of “application”

in the 1924 Act means only written statements
submitted in document form. With that meaning in
mind, we turn to Congress’s subsequent statutory

19a

language that builds on the 1924 Act.14
2. The Immigration and Nationality Act of 1952
Congress updated Section 1546(a) in the Immigration
and Nationality Act of 1952 (“1952 Act Amendment”).
Pub. L. No. 82-414, Title IV, § 402, 66 Stat. 163, 275–
76. Among other changes, it amended the fourth
paragraph of § 1546(a) to apply to “[w]hoever
knowingly makes under oath any false statement
with respect to a material fact in any application,
affidavit, or other document required by the
immigration laws.” Id. (emphasis added to text
inserted by amendment).
The parties agree that, at a minimum, the 1952 Act
Amendment limited prosecutions under § 1546(a) to
only material false statements, rather than
prosecution for any passing falsity. But does it do
more? The Government says yes, and reads the
phrase “with respect to” as covering all false material
statements whether “made orally, regarding the
written application, as well as in writing.” (Response
Br. at 22.) Jabateh posits that Congress added “with
respect to a material fact” only to “clarify that the
false statement, to be prosecutable, must be material”
and not “to have [the] substantive broadening effect”
____________________
In 1948, Congress codified the criminal law of the United
States into a single part of the United States Code, Title 18.
As a result, Section 22(c) of the 1924 Act moved to the fourth
paragraph of 18 U.S.C. § 1546(a) without change, and with a
new name, “Fraud and Misuse of Visas and Permits.” See Act
of June 25, 1948, Pub. L. No. 80-772, 62 Stat. 683, 771–72
(1948).
14

20a

of extending § 1546(a) to oral statements. (Opening
Br. at 28.) As with the 1924 Act, our answer turns on
the best reading of “the particular statutory language
at issue, as well as the language and design of the
statute as a whole.” K Mart Corp. v. Cartier, Inc., 486
U.S. 281, 291, 108 S.Ct. 1811, 100 L.Ed.2d 313 (1988);
see also Antonin Scalia & Bryan Garner, Reading
Law: The Interpretation of Legal Texts 167 (2012)
(explaining that under the whole-text canon “[i]t is
the most natural and genuine exposition of a statute
to construe one part of the statute by another part of
the same statute”).
First, consider Section 287 of the 1952 Act granting
certain select immigration officers the authority to
administer oaths. It also added that “any person to
whom such oath has been administered ... who shall
knowingly or willfully give false evidence or swear to
any false statement concerning any matter referred to
in this subsection shall be guilty of perjury” under 18
U.S.C. § 1621. 1952 Act § 287(b).15 15 Section 1621 is
the general perjury statute applicable not just to
immigration proceedings, but “in any case in which a
law of the United States authorizes an oath to be
administered[.]” 18 U.S.C. § 1621(1). So false
statements made under oath to immigration officers,
including oral statements, may be subject to
prosecution for perjury. And there was little point to
Congress adding that authority if, as the Government
contends, oral misstatements were already prohibited
under § 1546(a). To the contrary, “[w]e usually
‘presume differences in language like this convey
____________________
This provision is codified at 8 U.S.C. § 1357(b), and has
remained essentially unchanged since the 1952 Act.
15

21a

differences in meaning.’ ” Wis. Cent., 138 S. Ct. at
2071 (quoting Henson, 137 S. Ct. at 1723). “And that
presumption must bear particular strength when the
same Congress passed both statutes to handle much
the same task.” Id. at 2071–72. Following that
interpretive path, the best reading of *296 1952 Act
Amendment is that material, false statements made
under oath are chargeable under § 1546(a) only if
made in a document, while oral statements about
those same documents are chargeable as perjury
under § 1621. Indeed, “[m]ore confirmation yet comes
from a neighboring term in the statutory text.” New
Prime, 139 S. Ct. at 540. Because looking directly to §
1621 shows that Congress knew how to make a
criminal statute applicable to both oral and written
statements.16
Confirmation comes also from the amended section
heading of the 1952 Act, renamed with an eye toward
documents: “Fraud and misuse of visas, permits, and
other entry documents.” 1952 Act § 402. See Fla. Dep’t
of Revenue, 554 U.S. at 47, 128 S.Ct. 2326. This
____________________
This was equally true of the version of 18 U.S.C. § 1621
before the 1952 Act:

16

Whoever, having taken an oath before a competent
tribunal, officer, or person, in any case in which a law of the
United States authorizes an oath to be administered, that
he will testify, declare, depose, or certify truly, or that any
written testimony, declaration, deposition, or certificate by
him subscribed, is true, willfully and contrary to such oath
states or subscribes any material matter which he does not
believe to be true, is guilty of perjury[.]
Act of June 25, 1948, Pub. L. No. 80-772, 62 Stat. 683, 773–74
(1948).

22a

amendment
demonstrates
Congress’s
chosen
language focuses on documents, and not oral
statements. See Bedroc Ltd. v. United States, 541 U.S.
176, 183, 124 S.Ct. 1587, 158 L.Ed.2d 338 (2004)
(“The preeminent canon of statutory interpretation
requires us to presume that [the] legislature says in a
statute what it means and means in a statute what it
says there.”) (internal quotation marks and citation
omitted).
Short of re-writing Congress’s work, § 1546(a) is not
naturally read to apply to oral statements. Indeed,
any other reading, including the broad interpretation
posited by the Government, is “unmoor[ed]” from the
text and “opens the door to a world of disquieting
consequences—which we would need far stronger
textual support to believe Congress intended.”
Maslenjak v. United States, ––– U.S. ––––, 137 S. Ct.
1918, 1927, 198 L.Ed.2d 460 (2017).
3. The 1976 Amendment and Statements Made
“Under Penalty of Perjury”
The Government offers an alternative argument that
requires still more history. Recall that before 1976 the
language of § 1546(a) applied only to false statements
made “under oath” because, at that time,
administrative necessity required applicants to
appear in person to sign documents under oath.17 In
1976, Congress again amended § 1546(a) to add an
option to sign documents “under penalty of perjury.”
Pub. L. No. 94-550, 90 Stat. 2534, 2535 (1976) (“1976
____________________
See, e.g., Kansas, supra, at 21 (“The formal application is
filled out only when the alien presents himself [to the
Consulate] with his documents and evidence.”).
17

23a

Amendment”). The 1976 Amendment changed §
1546(a) “by inserting immediately after ‘under oath’
the following: ‘, or as permitted under penalty of
perjury under section 1746 of title 28, United States
Code, knowingly subscribes as true[.]’ ” Id. This, the
Government argues, served to “make clear that the
offense extends to [an oral] false statement under
oath as well as in writing.” (Response Br. at 23.)
Clear it is not. For one thing, new language added to
a statute ordinarily ought not be read to alter the
meaning of the statute’s existing and unchanged text.
Scalia & Garner, supra at 78 (explaining that under
the fixed-meaning canon “[w]ords must be given the
meaning they had when the text was adopted”).18
“After *297 all, if judges could freely invest old
statutory terms with new meanings, we would risk
amending legislation outside the single, finely
wrought and exhaustively considered, procedure the
Constitution commands.” New Prime, 139 S. Ct. at
539 (internal quotation marks and citation omitted).
So while the 1976 Amendment added a new,
alternative method for attestation, nothing suggests
that we are free to change the ordinary
understanding of the untouched portion of the text.
____________________
The Government suggests that we look to legislative
history for support (Govt. Supp. Br. at 15–16), but doing so
“would risk failing to take account of legislative compromises
essential to the law’s passage and, in that way, thwart rather
than honor the effectuation of congressional intent.” New
Prime, 139 S. Ct. at 543 (internal quotation marks and
alterations omitted). So we “must presume that a legislature
says in a statute what it means and means in a statute what
it says there.” Conn. Nat’l Bank v. Germain, 503 U.S. 249,
253–54, 112 S.Ct. 1146, 117 L.Ed.2d 391 (1992).
18

24a

The Government responds to all of this with
necessity, urging an atextual reading of § 1546(a) that
reaches oral statements because to hold otherwise
“would permit a defendant to escape Section 1546(a)
culpability for lying under oath to immigration
officials about the contents of required immigration
documents,” which the Government characterizes as a
“perverted result” that “should be avoided.” (Response
Br. at 21.) That plea deserves a response.
First, “[i]t is not our role to second-guess Congress’
decision,” or reimagine its words as we think
appropriate. Rotkiske v. Klemm, ––– U.S. ––––, 140 S.
Ct. 355, 361, 205 L.Ed.2d 291 (2019). Lest we forget,
“[t]he place to make new legislation, or address
unwanted consequences of old legislation, lies in
Congress.” Bostock, 140 S. Ct. at 1753. And that is for
reasons as old as our nation: “Congress alone has the
institutional competence, democratic legitimacy, and
(most importantly) constitutional authority to revise
statutes[.]” Wis. Cent., 138 S. Ct. at 2074. Second, the
Government asks for an interpretation of § 1546(a) so
novel that it concedes it is aware of no decision of any
court applying the meaning it seeks. (See Oral Arg.
Tr. at 32.) That is more likely explained by the
natural reading of the statute than coincidence.
Finally, what, precisely, is “perverted” about a result
that holds one branch of the Government to the limits
imposed by another equal branch? Not the egregious
facts of this case. None, including the jury that
weighed impartially the mountain of evidence
marshalled against Jabateh, would view his conduct
as anything less than monstrous. But none, including
the Government, can argue that glancing away from
25a

the limited authority given by the people will produce
a sounder, fairer, and stronger union. To the contrary,
“all powers of government, legislative, executive and
judicial alike, can be abused or perverted.” Jones v.
City of Opelika, 319 U.S. 105, 137, 63 S.Ct. 891, 87
L.Ed. 1292 (1943) (Frankfurter, J. dissenting). It is
our job, under Article III of the Constitution, to
enforce that solemn duty in cases both easy and hard,
filled with facts both bland and nauseating.
For all these reasons, the text, context, and history of
§ 1546(a) show that the best reading of the statute
applies only to material, false statements made in a
document under oath or under penalty of perjury, not
false statements made orally under oath about that
document. See Kansas v. Garcia, ––– U.S. ––––, 140
S. Ct. 791, 803, 206 L.Ed.2d 146 (2020) (describing
the conduct outlined in § 1546 as “immigrationdocument fraud”).19
____________________
In supplemental briefing, the Government argues for the
first time that even if Jabateh’s conviction under § 1546(a)
does not stand based on his oral statements, he is still “
‘punishable as a principal’ under 18 U.S.C. § 2(b)” because he
“caused” an immigration officer “to make the answers on his
behalf on the document.” (Govt. Supp. Br. at 7.) Section 2(b)
provides “[w]hoever willfully causes an act to be done which if
directly performed by him or another would be an offense
against the United States, is punishable as a principal.” 18
U.S.C. § 2(b). But the Supreme Court has cautioned that “[t]o
uphold a conviction on a charge that was neither alleged in an
indictment nor presented to a jury at trial offends the most
basic notions of due process.” Dunn v. United States, 442 U.S.
100, 106, 99 S.Ct. 2190, 60 L.Ed.2d 743 (1979). Even if the
evidence is clear that Jabateh caused an immigration officer
to include false answers in the immigration form, as the
19

26a

*298 B. Reviewing Jabateh’s Convictions Under

§ 1546(a) For Plain Error
Having reached the best ordinary reading of
§ 1546(a), we consider whether Jabateh’s convictions
under Counts One and Two may stand. Recall that
Jabateh did not raise this issue before the District
Court. As a result, our review is defined by Federal
Rule of Criminal Procedure 52(b), and we may only
reverse if the erroneous interpretation of § 1546(a) is
“plain.” United States v. Payano, 930 F.3d 186, 192
(3d Cir. 2019) (quoting United States v. Olano, 507
U.S. 725, 732, 113 S.Ct. 1770, 123 L.Ed.2d 508
(1993)). And under well-established principles, the
error here is not.
1. The Doctrine of Plain Error
We ground our analysis in history. The plain error
doctrine allows courts to notice and correct, at their
discretion, errors raised for the first time on appeal.
The Supreme Court has long recognized judicial
authority to address “a plain error [that] was
committed in a matter so absolutely vital to
defendants[.]” Wiborg v. United States, 163 U.S. 632,
658, 16 S.Ct. 1127, 41 L.Ed. 289 (1896); see also Clyatt
v. United States, 197 U.S. 207, 221–22, 25 S.Ct. 429,
49 L.Ed. 726 (1905). In United States v. Atkinson, the
Supreme Court clarified that the doctrine protects the
integrity of judicial proceedings where an unnoticed
error threatens to “seriously affect the fairness,
integrity, or public reputation of judicial proceedings.”
United States v. Atkinson, 297 U.S. 157, 160, 56 S.Ct.
_______________(cont'd)
Government now contends, it is long past the time for the
Government to add charges to its indictment.

27a

391, 80 L.Ed. 555 (1936). Less than a decade later,
Rule 52(b) codified Atkinson’s definition of plain error.
See Advisory Committee Notes on Fed. R. Crim. Proc.
52; accord Olano, 507 U.S. at 736, 113 S.Ct. 1770.
Olano articulated the four-prong inquiry for analyzing
errors under Rule 52(b) and the plain error doctrine.
Courts may provide remedies only if (1) there is an
“error[,]” (2) the error is “plain[,]” and (3) the plain
error “affect[s] substantial rights.” Olano, 507 U.S. at
732–34, 113 S.Ct. 1770; see also Johnson v. United
States, 520 U.S. 461, 466–67, 117 S.Ct. 1544, 137
L.Ed.2d 718 (1997). Meeting all three allows a court
to “correct a plain forfeited error affecting substantial
rights if the error ‘seriously affect[s] the fairness,
integrity or public reputation of judicial proceedings.’
” Olano, 507 U.S. at 736, 113 S.Ct. 1770 (citing
Atkinson, 297 U.S. at 160, 56 S.Ct. 391). Still, “Rule
52(b) is permissive, not mandatory.” Id. at 735, 113
S.Ct. 1770. And the result is a high bar for reversing
plain errors because a “plain error affecting
substantial rights does not, without more, satisfy the
Atkinson standard, for otherwise the discretion
afforded by Rule 52(b) would be illusory.” Id. at 736–
37, 113 S.Ct. 1770.
Here, our interpretation of § 1546(a) does not meet
the stringent test of Rule 52(b) because, applying our
prior decisions, the issue is not sufficiently “plain” to
warrant reversal.
2. Defining What Errors are “Plain” Under Rule
52(b)
The term “‘[p]lain’ is synonymous with ‘clear’ or,
equivalently, ‘obvious.’” *299 Id. at 734, 113 S.Ct.
28a

1770 (citations omitted). While courts sometimes
speak of statutes as either “clear” or “ambiguous,” the
fault lines among possible meanings are rarely so
sharp. That is why, whatever the label, “ ‘a reviewing
court employs all of the traditional tools of
construction’ ” to “ ‘reach a conclusion about the best
interpretation,’ thereby resolving any perceived
ambiguity.” Shular v. United States, ––– U.S. ––––,
140 S. Ct. 779, 788, 206 L.Ed.2d 81 (2020)
(Kavanaugh, J., concurring) (quoting Kisor v. Wilkie,
––– U.S. ––––, 139 S. Ct. 2400, 2448, 204 L.Ed.2d 841
(2019) (Kavanaugh, J., concurring in judgment)).
While that task is not difficult, the process of interpretation may require more or less rummaging in the
“toolbox” to “seiz[e] everything from which aid can be
derived[.]” Ocasio v. United States, ––– U.S. ––––, 136
S. Ct. 1423, 1434 n.8, 194 L.Ed.2d 520 (2016) (quoting
Muscarello v. United States, 524 U.S. 125, 138–39,
118 S.Ct. 1911, 141 L.Ed.2d 111 (1998)). And the
deeper that interpretive inquiry, the less obvious, at
least at the outset, the answer.
It is generally true that “lack of precedent alone will
not prevent us from finding plain error.” United
States v. Stinson, 734 F.3d 180, 184 (3d Cir. 2013);
see, e.g., United States v. Benjamin, 711 F.3d 371, 379
(3d Cir. 2013) (“Although the continuing nature of the
conduct criminalized by the ... statute is a matter of
first impression for this Court, we hold that the
District Court’s error was plain.”); see also United
States v. Seals, 813 F.3d 1038, 1047 (7th Cir. 2016)
(“[T]he fact that this court rarely finds plain error in
[matters of first impression] does not mean that such
a conclusion is never warranted.”) (internal quotation
marks omitted). But for relief under the stringent
29a

Olano standard, novel questions still must be capable
of measurement against “some other ‘absolutely clear’
legal norm[.]” United States v. Nwoye, 663 F.3d 460,
466 (D.C. Cir. 2011); see also Henderson v. United
States, 568 U.S. 266, 275, 133 S.Ct. 1121, 185 L.Ed.2d
85 (2013) (“[W]hether the law of [a] circuit initially
was unclear .... [is] likely to be particularly difficult to
resolve where what is at issue is a matter of legal
degree, not kind.”); Gov’t of the V.I. v. Vanterpool, 767
F.3d 157, 163 (3d Cir. 2014); United States v.
Seighman, 966 F.3d 237, 244 (3d Cir. 2020).
3. Jabateh’s Novel Argument Does Not Produce
Plain Error
Taken together, the novel question of whether
§ 1546(a) is best read to include oral statements is not
an interpretative exercise that falls within the
exacting limits of Federal Rule of Criminal Procedure
52(b). First, it cannot be said that the meaning of §
1546(a) was “clear” as we normally understand clarity
in legal interpretation, for the meaning of § 1546(a)
was unsettled both at Jabateh’s trial and throughout
this appeal. Henderson, 568 U.S. at 275, 133 S.Ct.
1121; see also United States v. Terrell, 696 F.3d 1257,
1260 (D.C. Cir. 2012) (noting that, in plain error
review, “ ‘plain’ simply means ‘clear’ ”) (citation
omitted). Second, as all parties agree, there is no
instance of any other court considering the ordinary
meaning of § 1546(a). Vanterpool, 767 F.3d at 163.
Nor is there any controlling or persuasively clear
“legal norm” on the meaning of the provision. Stinson,
734 F.3d at 184; Nwoye, 663 F.3d at 466.
At bottom, Jabateh’s challenge presents a new issue
of interpretation, where only a close interpretative
30a

inquiry reveals the best reading of § 1546(a). That,
under controlling decisions of Federal Rule 52(b), is
not a clear, plain error. We do not doubt that “[f]ew
constitutional principles are more firmly established
than a defendant’s right to be heard on the specific
charges of which he is accused.” *300 Dunn v. United
States, 442 U.S. 100, 106, 99 S.Ct. 2190, 60 L.Ed.2d
743 (1979). But the limits on our review prescribed by
the Supreme Court in Rule 52(b) under the authority
provided by Congress in the Rules Enabling Act, 28
U.S.C. § 2072, bind our review. As a result, we cannot
disturb Jabateh’s conviction.20
C.
Ample
Evidence
Supports
Convictions Under 18 U.S.C. § 1621

Jabateh’s

Jabateh argues that his perjury convictions should
also be reversed because the evidence submitted at
trial failed to prove a false statement. Again, as
Jabateh failed to move for a judgment of acquittal
based on the insufficiency of the evidence, we review
his claim for plain error. United States v. Gordon, 290
F.3d 539, 547 (3d Cir. 2002). We thus “review the
argument only for a manifest miscarriage of justice—
the record must be devoid of evidence of guilt or the
evidence must be so tenuous that a conviction is
shocking.” United States v. Burnett, 773 F.3d 122, 135
____________________
Jabateh asks this Court to employ the “rule of lenity” to
find in his favor “if there were some doubt about the
meaning” of § 1546. (Opening Br. at 29.) Having arrived at
the best ordinary meaning of the statute, we find that the
rule of lenity has no application here. See United States v.
Johnman, 948 F.3d 612, 620 (3d Cir. 2020) (holding that the
rule of lenity “may be applied only where we are left with
‘grievous ambiguity’ after applying all other traditional tools
of statutory interpretation”) (citation omitted).
20

31a

(3d Cir. 2014) (internal quotation marks and citation
omitted). “Such an error requires a defendant to
establish that the trial judge and prosecutor were
derelict in even permitting the jury to deliberate.” Id.
So “the relevant question is whether, after viewing
the evidence in the light most favorable to the
prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307,
319, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979) (emphasis
in original).
Counts Three and Four charged Jabateh with perjury
in violation of 18 U.S.C. § 1621(1). As usual, the text
governs. Section 1621(1) provides that an individual
is guilty of perjury if, after “tak[ing] an oath before a
competent tribunal [or] officer ... that he will testify,
declare, depose, or certify truly, or that any written
testimony, declaration, deposition, or certificate by
him subscribed, is true,” the individual “willfully and
contrary to such oath states or subscribes any
material matter which he does not believe to be
true[.]” 18 U.S.C. § 1621(1). Distilled to its elements,
the Government must show that Jabateh 1) willfully
2) made a false statement 3) under oath 4) before a
tribunal or officer 5) about a material matter. See
United States v. Dunnigan, 507 U.S. 87, 94, 113 S.Ct.
1111, 122 L.Ed.2d 445 (1993). The record shows that
the Government amply carried its burden.
1. Count Three
Form I-485, Application to Register Permanent
Resident or Adjust Status, asked Jabateh whether he
had “ever engaged in genocide, or otherwise ordered,
incited, assisted or otherwise participated in the
32a

killing of any person because of race, religion,
nationality, ethnic origin or political opinion[.]” (App.
at 84.) Jabateh responded “No” on the form. (App. at
84.) Count Three charged that Jabateh committed
perjury in violation of 18 U.S.C. § 1621 during his
2011 Interview when, under oath, he falsely affirmed
the truth of this response. Jabateh argues that the
Government never established that these killings
occurred “because of race, religion, nationality, ethnic
origin or political opinion.” (Opening Br. at 30–31.)
The evidence presented tells a different story.
*301 To start, witnesses recounted in graphic detail
the rampant violence perpetrated by Jabateh,
personally or under his orders, for factional political
affiliation. Hawa Gonoie testified that at just thirteen
years old she witnessed Jabateh order his men to kill
and mutilate a suspected spy. Janghai Barclay
testified that she watched Jabateh declare a captured
young man a traitor with no more than a glance and
order his execution. Kafumba Konneh testified that
he watched Jabateh order executions of suspected
spies and NPFL prisoners of war more than once.
Or take the evidence that Jabateh and his fighters
targeted victims solely based on ethnic and religious
differences. After the ULIMO split along tribal lines,
with Mandingo fighters forming ULIMO-K and Krahn
fighters forming ULIMO-J, Jabateh and his ULIMOK fighters targeted, tortured, and killed members of
the Krahn tribe. Martha Togba testified that she
observed Mandingo ULIMO-K fighters disarming
non-Mandingo fighters at Zero Guard Post while
chanting and wearing headbands proclaiming “No
more Jesus, only Allah.” (App. at 450.) A few days
33a

later, Jabateh brutally beat, shot, stabbed, and killed
Ms. Togba’s pregnant sister, Tina, and left her body in
the street to rot; all because she was in a relationship
with a Krahn ULIMO-J commander.
Candidly, Jabateh does not deny his role in these
atrocities. Instead, he argues his actions resulted
from “a general atmosphere of cruelty and violence in
the context of a civil war seemingly waged without
rules or restraint.” (Opening Br. at 31.) Even if “there
were no clean hands” in the Liberian civil war (App.
at 619), and even if multiple factions committed
religiously, ethnically or politically motivated
violence, they are of no possible relevance to Jabateh’s
convictions. There was sufficient evidence presented
for a rational trier of fact to have found that Jabateh
committed perjury.
2. Jabateh Gained Immigration Benefits by Fraud
or Willful Misrepresentation
Remember that during the 2011 Interview
immigration officials asked Jabateh whether he had,
“by fraud or willful misrepresentation of material fact,
ever sought to procure, or procured, a visa, other
documentation, entry into the U.S., or any
immigration benefit,” a question identical to that
shown on his Form I-485. (App. at 84, 637.) Jabateh
orally reaffirmed that his response was “no.” That,
says the Government in Count Four of the indictment,
is perjury in violation of § 1621 because Jabateh
gained asylum by lying in his Asylum Application and
again during 1999 Interview. That is correct.
Begin with Jabateh’s submissions in support of his
application for asylum. In his attached personal
34a

statement, Jabateh stated that between 1992 and
1995 he served as an “intelligence officer” and later as
a “security section liaison” with the ULIMO. (App. at
144–45.) The evidence shows otherwise, with several
witnesses testifying that Jabateh never served in
security, but as a commander and an active
combatant in the ULIMO-K.
Jabateh argues that his “inadequately detailed
personal statement” was “[b]ut a simple failure to
volunteer additional information” and insufficient to
establish fraud or willful misrepresentation. (Opening
Br. at 34–35.) But this is no simple oversight or
innocuous omission. He not only failed to disclose his
role as a combatant, he affirmatively misrepresented
the scope of that role. Jabateh painted himself as a
peaceful figure that actively “protect[ed] Mandingo
and Krahn people from being murdered and
massacred” and assisted with United Nations and
ECOMOG disarmament efforts. (App. at 144–45.) The
*302 testimony of seventeen witnesses to his violence
brought forth the truth. These misrepresentations no
doubt led Jabateh to be granted asylum. Nancy
Vanlue, the asylum officer who conducted the 1999
Interview, testified that, had she known Jabateh
misrepresented his positions in ULIMO, he would
have been barred from obtaining asylum as a
persecutor.
And Jabateh’s misrepresentations did not end with
his asylum application and personal statement. In the
1999 Interview, he denied having “ever committed a
crime” or even “harm[ing] anyone else.” (App. at 74,
166, 570–71.) Jabateh now claims on appeal that
these questions “are too vague and ambiguous to
35a

support a conviction.” (Opening Br. at 37 (quoting
App. at 74).) Yet “[c]hallenges to the clarity of a
question” that arise in perjury cases, such as the
challenge raised by Jabateh, “are typically left to the
jury, which has the responsibility of determining
whether the defendant understood the question to be
confusing or subject to many interpretations.” United
States v. Hird, 913 F.3d 332, 346 (3d Cir. 2019). That
means we “will not disturb a jury’s determination that
a response under oath constitutes perjury unless it is
entirely unreasonable to expect that the defendant
understood the question posed to him.” Id. (internal
quotation marks and citation omitted). Instead, we
are “focused on glaring instances of vagueness or
double-speak by the examiner at the time of
questioning
(rather
than
artful
post-hoc
interpretations of the questions) that—by the lights of
any reasonable fact-finder—would mislead or confuse
a witness into making a response that later becomes
the basis of a perjury conviction.” Id. at 347–48.
That standard makes quick work of this claim. For it
was not “entirely unreasonable” for the jury to have
expected Jabateh to have understood these simple
questions. Id. at 346. Vanlue’s testimony, for example,
shows that Jabateh understood what it means to
commit a crime or cause harm. Vanlue recalled that
during his asylum interview Jabateh described being
beaten, and his wife raped, because of his Mandingo
tribal affiliation. Gallingly, he cited these acts as the
basis for his asylum claim. The jury could conclude
Jabateh knew right from wrong. Likewise, as already
painfully recounted, the evidence presented at trial
was sufficient for a rational finding that Jabateh’s
entire military career was defined by violent crime.
36a

Logically, there was sufficient evidence for the jury to
find that Jabateh gained asylum by lying about his
crimes. And from there it is a small step to conclude
that Jabateh perjured himself during his 2011
Interview by affirming under oath statements “which
he d[id] not believe to be true.” 18 U.S.C. § 1621(1).
For all those reasons, we find no plain error in
Jabateh’s conviction under Count Four.
D. The District Court Was Not Required to
Merge Jabateh’s Immigration Fraud and
Perjury Convictions
For the first time on appeal, Jabateh argues that
Counts One and Three charged the “same offense.”
Likewise, Counts Two and Four. We disagree. “The
applicable rule is that, where the same act or
transaction constitutes a violation of two distinct
statutory provisions, the test to be applied to
determine whether there are two offenses[,] or only
one, is whether each provision requires proof of a fact
which the other does not.” Blockburger v. United
States, 284 U.S. 299, 304, 52 S.Ct. 180, 76 L.Ed. 306
(1932); see also United States v. Miller, 527 F.3d 54,
71 (3d Cir. 2008) (applying Blockburger’s “sameelements” test).
To prove a violation of § 1546(a), the Government
needed to show that Jabateh 1) “knowingly” 2) “under
oath” 3) made “any false statement” 4) “with respect
*303 to a material fact” 5) in a “document required by
the immigration laws or regulations.” 18 U.S.C.
§ 1546(a). By contrast, to prove a violation of
§ 1621(1), the Government needed to establish that
Jabateh 1) “willfully” 2) made a false statement 3)
37a

under oath 4) before a tribunal or officer 5) about “any
material matter.” 18 U.S.C. § 1621(1).
Comparing these two statutes reveals at least two key
differences. First, § 1546(a) requires proof that the
“false statement” was in a “document required by the
immigration laws or regulations.” Section 1621(1)
contains no such element. Second, § 1546(a) and
§ 1621(1) require different states of mind. Section
1546(a) requires proof of a “knowingly” false
statement, while § 1621(1) requires proof the
defendant acted “willfully.” Cf. United States v.
Sherman, 150 F.3d 306, 311 (3d Cir. 1998) (describing
“knowingly” as “a reduced mens rea” as compared to
“willfully”) (emphasis omitted); United States v.
Gross, 511 F.2d 910, 914–15 (3d Cir. 1975) (“Congress
chose to provide different mens rea elements: Unlike
the general perjury statute, § 1623 requires that a
false statement be made ‘knowingly,’ rather than
‘willfully.’”). As each statute requires the Government
to establish at least one element that is not required
by the other statute, there is no plain error in
declining to merge the counts.
E. Jabateh’s Consecutive Sentence Is Not Plain
Error
Jabateh challenges his thirty-year aggregate
sentence, arguing that the District Court’s 26-level
departure and imposition of the maximum sentence
on each count running consecutively was procedurally
unreasonable. Once again, as Jabateh failed to raise
his objections before the District Court, we review the
procedural reasonableness of his sentence for plain

38a

error.21 Holguin-Hernandez v. United States, ––– U.S.
––––, 140 S. Ct. 762, 764, 206 L.Ed.2d 95 (2020)
(“Errors ‘not brought to the court’s attention’ ... are
subject to review only insofar as they are ‘plain.’ ”)
(quoting Fed. R. Crim. Proc. 52(b)). He does not meet
that rigorous test.
We have explained that “District Courts engage in a
three step process when imposing a sentence, the first
being that the defendant’s guideline range is
calculated.” United States v. Stevenson, 832 F.3d 412,
431 (3d Cir. 2016) (internal quotation marks and
citation omitted). And “[t]he [District] Court [is]
required to make this determination before moving on
to consider any departure motions (step two) and the
§ 3553(a) factors (step three)[.]” Id. Jabateh argues
that the District Court committed procedural errors
by 1) imposing an unjustified upward departure; 2)
imposing consecutive sentences; and 3) basing
Jabateh’s sentence on a material misapprehension of
fact.
1. The District Court’s Upward Departure or
Variance
The District Court departed 26 levels to impose a
total sentence of 360 months, comprising consecutively-running sentences of 120 months’ imprisonment on each of Counts One and Two (violations of
§ 546(a)) and sixty months’ imprisonment on each of
____________________
Although Jabateh first argued we review his sentence for
an abuse of discretion (Opening Br. at 46), he conceded at oral
argument that he was “up against plain error” (Oral Arg. Tr.
at 52). We agree with that revised position, as Jabateh has
not pointed to where he objected to an above-Guidelines
sentence. Nor can we locate any objection in the record.
21

39a

Counts Three and Four (violations of § 1621).22 That
represented the *304 statutory maximum for each
count of conviction. The District Court based its
sentence on two alternative grounds: 1) “an upward
departure because of the seriousness of [Jabateh’s]
immigration offenses, pursuant to Guidelines §
5K2.0”; and 2) “an upward variance from the
Guidelines, pursuant to 18 U.S.C. § 3553[.]” (App. at
26–27.)
Under § 5K2.0, a “sentencing court may depart from
the applicable guideline range if ... the court finds,
pursuant to 18 U.S.C. § 3553(b)(1), that there exists
an aggravating or mitigating circumstance[.]”
U.S.S.G. § 5K2.0(a)(1). The District Court calculated
the initial Guidelines range using the 2010
Sentencing Guidelines, which did “not take into
consideration the significant aggravating circumstances—the serious human rights offenses—the
defendant concealed when he committed the instant
offense[s].” (PSR ¶ 108.)
As the District Court’s exhaustive sentencing
memorandum explained, Jabateh’s “criminal actions
f[e]ll well outside the heartland of all Guidelines
provisions related to immigration fraud and perjury.”
____________________
Jabateh does not challenge the District Court’s initial
calculation of the advisory Guideline range of fifteen months’
to twenty-one months’ imprisonment. Rather, he challenges
the 26-level upward departure, which led to an adjusted
Guidelines range of 292 to 365 months’ imprisonment. (App.
at 11.) The District Court then imposed the combined
statutory maximum of 360 months for all four counts. (App.
at 11.) See 18 U.S.C. § 1546(a) (statutory maximum of ten
years for the first and second offense under this section); 18
U.S.C. § 1621 (statutory maximum of five years).
22

40a

(App. at 35; see also PSR ¶¶ 108, 110 (observing that
“[a]fter considering the history and characteristics of
the defendant, the Court may consider a sentence
outside the advisory guideline system”).) Although the
District Court addressed and considered Jabateh’s
conduct in Liberia, the sentence was ultimately based
on the seriousness of his lies and their effect on the
asylum and immigration process. As to Jabateh’s
immigration fraud, the District Court reasoned that
“[i]n lying to INS about his crimes and seeking
sanctuary as a persecuted refugee, [Jabateh] stood
the persecutor bar and, indeed, the asylum system
itself, on its head.” (App. at 33.) And as to perjury, the
District Court emphasized that the “heartland of
Guidelines § 2J1.3 is far removed from the kind of
perjury [Jabateh] committed here: perjury that
undermines the foundations of our immigration and
asylum system.” (App. at 35.)
These conclusions are neither irrational nor novel. To
the contrary, they mirror decisions in similar cases
imposing statutory maximum sentences for similar
offenses. See, e.g., United States v. Munyenyezi, 781
F.3d 532 (1st Cir. 2015) (affirming concurrent,
statutory-maximum sentences for immigration fraud
convictions arising from defendant’s concealment of
her role in the Rwandan genocide); United States v.
Worku, 800 F.3d 1195 (10th Cir. 2015) (affirming
significant upward departure and 22-year sentence
for immigration fraud conviction arising from
concealment of defendant’s human rights abuses in
Ethiopia). For those reasons, there is no plain error.
The Court’s sentencing memorandum leaves no doubt
that its rationale for Jabateh’s substantive sentence,
and for running the sentences consecutively, are the
41a

same. United States v. Cochrane, 702 F.3d 334, 346
(6th Cir. 2012).
2. The Imposition of Consecutive Sentences
“Judges have long been understood to have discretion
to select whether the sentences they impose will run
concurrently or consecutively with respect to [the]
sentences that they impose[.]” *305 Setser v. United
States, 566 U.S. 231, 236, 132 S.Ct. 1463, 182 L.Ed.2d
455 (2012); accord United States v. Payano, 930 F.3d
186, 194 n.7 (3d Cir. 2019). To exercise this discretion,
a district court, “in determining whether the terms
imposed are to be ordered to run concurrently or
consecutively, shall consider, as to each offense for
which a term of imprisonment is being imposed, the
factors set forth in section 3553(a).” 18 U.S.C. § 3584.
Here, the District Court appropriately weighed the
factors set forth in 18 U.S.C. § 3553(a).
While the Guidelines advise that “[a]ll counts
involving substantially the same harm shall be
grouped together,” U.S.S.G. § 3D1.2, they readily
acknowledge a district court’s authority to impose
concurrent or consecutive sentences, U.S.S.G. §§
5G1.2(d), 5G1.3(b). “If the sentence imposed on the
count carrying the highest statutory maximum is less
than the total punishment, then the sentence imposed
on one or more of the other counts shall run
consecutively, but only to the extent necessary to
produce a combined sentence equal to the total
punishment.” U.S.S.G. § 5G1.2(d). This was case here.
Consecutive sentences implemented the District
Court’s adjusted Guidelines range of 292 to 365
months’ imprisonment, reduced to the statutory
maximum of 360 months. Given the latitude afforded
42a

to sentencing courts to select concurrent or
consecutive sentences, and the Guidelines’ directive
that sentences “shall run consecutively to produce a
combined sentence equal to the total punishment,”
U.S.S.G. § 5G1.2(d), the sentences here are not
plainly erroneous.
3. The Sentence Was Not Based on a Material
Misapprehension of Fact
Finally, Jabateh argues that his sentence must be
vacated because the District Court stated Jabateh
had committed or participated in genocide.23 23 But
the Court did not justify the sentence based on the
possible legal significance of Jabateh’s actions.
Rather,
the
sentence
stemmed
from
“the
egregiousness of [Jabateh’s] lies and their effect on
our immigration system,” and the fact that the “lies
allowed [him] to impugn the integrity of our asylum
process for almost twenty years.” (App. at 38.) Over
and over, the District Court explained its decision
____________________
23

A defendant is guilty of “genocide” when,
with the specific intent to destroy, in whole or in
substantial part, a national, ethnic, racial, or religious
group ... (1) kills members of that group; (2) causes
serious bodily injury to members of that group; (3) causes
the permanent impairment of the mental faculties of
members of the group through drugs, torture, or similar
techniques; (4) subjects the group to conditions of life that
are intended to cause the physical destruction of the
group in whole or in part; (5) imposes measures intended
to prevent births within the group; or (6) transfers by
force the children of the group to another group[.]

18 U.S.C. § 1091(a).

43a

hinged on the gravity of Jabateh’s concealment of his
“commission of every conceivable war crime” and
“countless human rights offenses.” (App. at 32; App.
at 28 (“I thus imposed an upward departure because
of the seriousness of Defendant’s lies, separate and
apart from the horror of the crimes themselves.”)
(emphasis added).) So there is no plain error in
considering Jabateh’s participation in genocidal acts,
among the multitude of human rights atrocities
established in the record, to fashion a reasonable
sentence.24
*306 III. Conclusion

For the above reasons, we will affirm Jabateh’s
conviction and sentence.
.

____________________
Even assuming the District Court considered Jabateh’s role
in genocide, there would be no misapprehension of fact
constituting plain error. (See App. at 14–24, 26, 32 (noting
efforts to “eliminate Krahn rivals”), 1391–93, 1394 (“The trial
has overwhelmingly showed that the defendant committed
these acts purely, purely because of ethnic enmity, political
enmity, or religious enmity.”).) Jabateh’s denials of his role in
both genocide and “the killing of any person because of race,
religion, nationality, ethnic origin or political opinion” were
gravely false. (App. at 75.)
24

44a

APPENDIX B
UNITED STATES COURT OF APPEALS,
FOR THE THIRD CIRCUIT
________________
No. 18-1981
______________
UNITED STATES OF AMERICA
v.
MOHAMMED JABATEH
a/k/a Jungle Jabbah,
Mohammed Jabateh,
Appellant.
________________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-16-cr-00088-001)
District Judge: Hon. Paul S. Diamond
________________
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, Jr., SHWARTZ, RESTREPO,
BIBAS, PORTER, MATEY, PHIPPS and FUENTES*,
Circuit Judges
SUR PETITION FOR REHEARING
The petition for rehearing filed by appellant
Mohammed Jabateh in the above-captioned matter
has been submitted to the judges who participated in
the decision of this Court and to all other available
circuit judges of the Court in regular active service,
____________________
*

Judge Fuentes’ vote is limited to panel rehearing only.

45a

and no judge who concurred in the decision having
asked for rehearing, and a majority of the judges of
the circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel and
the Court en banc, is denied.
By the Court,

Dated: October 27, 2020

s/ Paul B. Matey
Circuit Judge

46a

